U.S. Department of the Interior
Office of Inspector General




          SURVEY REPORT

 SELECTED ADMINISTRATIVE ACTIVITIES
              AT REGION 6,
    U.S. FISH AND WILDLIFE SERVICE

            REPORT NO. 95-I-1406
              SEPTEMBER 1995
MEMORANDUM

TO:

FROM:


SUBJECT SUMMARY:              Final Survey Report for Your Information - “Selected
                              Administrative Activities at Region 6, U.S. Fish and
                              Wildlife Service” (No. 95-I-1406)

Attached for your information is a copy of the subject final survey report,

U.S. Fish and Wildlife Service’s Region 6 was effectively operating and managing the
six administrative activities that we reviewed. Administrative activities reviewed were
imprest fund operations, time and attendance reporting, credit card usage, remote
data entry of financial transactions, capitalized equipment accountability, and small
purchases. In addition, we believe that the expanded use of remote data entry and
credit cards by Region 6 has helped the Service’s Finance Center meet its due dates
by reducing paperwork and document flow within the Service.

If you have any questions concerning this matter, please contact me at (202) 208-
5745.



Attachment
                                                                   C-IN-FWS-O02-95


           United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                   Headquarters Audits
                                  1550 Wilson Boulevard
                                        Suite 401
                                   Arlington, VA 22209



                MEMORANDUM SURVEY REPORT

To:

From:


Subject: Final Survey Report on Selected Administrative Activities at Region 6,
         U.S. Fish and Wildlife Service (No. 95-I-1406)

                              INTRODUCTION
This report presents the results of our survey of selected administrative activities at
the U.S. Fish and Wildlife Service’s Region 6, located in Lakewood, Colorado. The
objective of the survey was to determine whether the selected administrative activities
were conducted in accordance with established laws, regulations, and procedures
during fiscal year 1995. Administrative activities reviewed during the survey were
imprest fund operations, time and attendance reporting, credit card usage, remote
data entry of financial transactions, capitalized equipment accountability, and small
purchases.

BACKGROUND
Region 6 is responsible for Service activities in Colorado, Kansas, Montana,
Nebraska, North Dakota, South Dakota, Utah, and Wyoming. The Assistant
Regional Director for Budget and Administration, who reports to the Regional
Director, is the official responsible for administrative activities. Appropriations
available to Region 6 during fiscal year 1995 approximated $100 million.

SCOPE OF SURVEY
Our survey was made in accordance with the “Government Auditing Standards,”
issued by the Comptroller General of the United States. Accordingly, we included
such tests of records and other auditing procedures that were considered necessary
under the circumstances. We interviewed Region 6 personnel who were responsible
for administrative activities and performed limited testing of available records and
transactions. Our survey was performed during June and July 1995.

In addition, we reviewed the Secretary’s Annual Statement and Report to the
President and the Congress for fiscal year 1994, required by the Federal Managers
Financial Integrity Act of 1982, to determine whether any reported weaknesses were
within the objective and scope of our survey. We determined that none of the
reported weaknesses were directly related to the objective and scope of our survey.

PRIOR AUDIT COVERAGE
Neither the General Accounting Office nor the Office of Inspector General has
issued any reports in the past 5 years that addressed the administrative activities of
Region 6.

                          RESULTS OF SURVEY

We concluded that the Region 6 staff was effectively operating and managing the six
administrative activities that we reviewed. In addition, we believe that the expanded
use of remote data entry and credit cards has significantly increased the capability
of the Finance Center to meet its deadlines by reducing paperwork and document
flow within the Service. Because Region 6 has actively endorsed and implemented
these activities with positive results, we believe that it would be in the best interest
of the Service to encourage all regions to maximize the use of remote data entry and
credit cards.

Imprest Funds
Our review disclosed that the Region’s $7,500 imprest fund was fully accounted for
and adequately safeguarded and that the fund was used in compliance with existing
requirements. In addition, we found that the fund level was appropriate.

Time and Attendance Reporting
We found that payroll and personnel duties were adequately separated to ensure the
integrity of the system data base. Also, our test of time and attendance reports
disclosed that the reports were adequately completed, reviewed, and approved before
processing.

Credit Card Usage
We found that Region 6 used credit cards in accordance with existing regulations.
Required listings of cardholders and approving officials were currently maintained,
and the required training was provided. Our test of credit card transactions
disclosed that fund certifications and approvals were obtained, sources of supply were
verified, price quotes were obtained with the lowest price used, proper accounting
data were cited, and cardholder dollar purchase limits were not exceeded.
Remote Data Entry
Region 6 effectively implemented remote data entry of obligation and disbursement
transactions. Our test of remote data entry transactions disclosed that transaction
limits were not exceeded, obligations were properly recorded, budget object classes
were used properly, the requirements of the Prompt Payment Act were complied
with, transactions were properly approved, and the overall effort was effectively
coordinated with the Service’s Finance Center.

Capitalized Equipment Accountability
Capitalized equipment was adequately accounted for and controlled. Our review
disclosed that annual physical inventories were performed, capitalized equipment
balances were reconciled with the general ledger on a monthly basis, and the
personal property system was updated timely when items were acquired or disposed
of. In addition, we physically verified the existence of randomly selected equipment
items,

Small Purchases
Small purchases regulations were adequately followed. Our test of small purchase
transactions disclosed that warrant authority ceilings were observed, mandatory
supply sources were used, price quotes were obtained, the reasonableness of price
quotes was ascertained, purchase orders were modified when needed, and blanket
purchases were used properly.

The cooperation and the assistance provided by the Region 6 staff were appreciated
and facilitated accomplishment of the review. Since this report makes no
recommendations, a response to this office is not required. However, if you have
any questions regarding this report, please contact Mr. Alan Klein, Regional Audit
Manager, Central Region, at (303) 236-9243.




                                         3
                                                                                        i




               ILLEGAL OR WASTEFUL ACTIVITIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:


Sending written documents to:                                   Calling:


                      Within the Continental United States


Us. Department of the Interior                           Our 24-hour
Office of Inspector General                              Telephone HOTLINE
P.O. Box 1593                                            1-800-424-5081 or
Arlington, Virginia 22210                                (703) 235-9399
                                                         TDD for the hearing impaired
                                                         (703) 235-9403 or
                                                         1-800-354-0996

                     Outside the Continental United States

                                    Caribbean Area


U.S. Department of the Interior                          (809) 774-8300
Office of Inspector General
Caribbean Region
Federal Building & Courthouse
Veterans Drive, Room 207
St. Thomas Virgin Islands 00802


                                  North Pacific Region

U.S. Department of the Interior                          (700) 550-7279 or
Office of Inspector General                              COMM 9-011-671472-7279
North Pacific Region
238 Archbishop F.C. F1ores Street
Suite 807, PDN Building
Agana, Guam 96910
